<html>
<title> - URGING THE GOVERNMENT OF BURMA TO END THE PERSECUTION OF THE ROHINGYA PEOPLE AND RESPECT HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY GROUPS WITHIN BURMA; AND EXPRESSING CONCERN OVER REPORTS OF SYSTEMATIC, STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 URGING THE GOVERNMENT OF BURMA TO END THE PERSECUTION OF THE ROHINGYA 
 PEOPLE AND RESPECT HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY 
GROUPS WITHIN BURMA; AND EXPRESSING CONCERN OVER REPORTS OF SYSTEMATIC, 
  STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF 
              CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA

=======================================================================


                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                      H. Res. 418 and H. Res. 281

                               __________

                           DECEMBER 11, 2013

                               __________

                           Serial No. 113-89

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-005 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Markup of

H. Res. 418, Urging the Government of Burma to end the 
  persecution of the Rohingya people and respect internationally 
  recognized human rights for all ethnic and religious minority 
  groups within Burma............................................     2
  Amendment in the nature of a substitute to H. Res. 281 offered 
    by the Honorable Steve Chabot, a Representative in Congress 
    from the State of Ohio, and chairman, Subcommittee on Asia 
    and the Pacific..............................................    13
H. Res. 281, Expressing concern over persistent and credible 
  reports of systematic, state-sanctioned organ harvesting from 
  non-consenting prisoners of conscience, in the People's 
  Republic of China, including from large numbers of Falun Gong 
  practitioners imprisoned for their religious beliefs, and 
  members of other religious and ethnic minority groups..........     6

                                APPENDIX

Markup notice....................................................    24
Markup minutes...................................................    25
Markup summary...................................................    26
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................    27

 
 URGING THE GOVERNMENT OF BURMA TO END THE PERSECUTION OF THE ROHINGYA 
 PEOPLE AND RESPECT HUMAN RIGHTS FOR ALL ETHNIC AND RELIGIOUS MINORITY 
GROUPS WITHIN BURMA; AND EXPRESSING CONCERN OVER REPORTS OF SYSTEMATIC, 
  STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF 
              CONSCIENCE IN THE PEOPLE'S REPUBLIC OF CHINA

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 3 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The meeting will come to order. Pursuant to 
notice we have for markup two bipartisan resolutions. As your 
offices were notified on Monday, we intend to consider both of 
those measures, as well as one agreed amendment, en bloc. And 
so, without objection, the following measures are considered 
read and will be considered en bloc: H. Res. 418, Urging the 
Government of Burma to end the persecution of the Rohingya 
people; and H. Res. 281, Expressing concern over reports of 
organ harvesting from nonconsenting prisoners of conscience in 
the People's Republic of China, and Chabot No. 34, an amendment 
in the nature of a substitute to H. Res. 281, which was 
provided to all members and posted online on Monday.
    [The information referred to follows:]<greek-l>H. Res. 
418 deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


H. Res. 281 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Chabot ANS to H. Res. 281 

    Mr. Chabot. I recognize myself to speak on the items being 
considered en bloc. We will try to get this in before votes 
which are to come up shortly. If votes happen, I will cut my 
statement off a little bit quicker and we can continue to move 
forward. I want to thank all members for being here.
    Over the past few months, this subcommittee has held two 
hearings to examine the ethnic unrest in Burma and the Obama 
administration's policy toward that country. As we have 
learned, the political and social situation in Burma is 
extremely fragile and the civil unrest between Burma's Buddhist 
majority and Muslim minority is threatening the progression of 
Burma's future and political reforms. Of particular concern is 
the Government of Burma's decades long persecution of the 
Rohingya Muslims in the Rakhine state.
    The Burmese Government labels the violence against the 
Rohingya Muslim minority as intercommunal, but it is in 
actuality much more than that. The United Nations' special 
rapporteur on the situation of human rights in Burma describes 
the situation as a profound crisis and believes the Burmese 
Government has taken few, if any, steps to forge a peaceful, 
harmonious, and prosperous future for the Rahkine state. Since 
violence erupted in June 2012, 882 Rohingya have been forcibly 
detained, but no state officials have been arrested in 
connection with the widespread violence and systematic human 
rights violations carried out by security forces. The 
government is complicit in extrajudicial killings, rape, 
arbitrary detention, torture, deaths in detention, and denial 
of due process and fair trial rights for the Rohingya.
    According to law, the Rohingya are rendered stateless 
because the Burmese Government considers them illegal 
immigrants, consequently denying them citizenship despite the 
fact they have been living in the Rakhine state for 
generations. As a result of this status, the Rohingya face 
legal, economic, and social restrictions. This includes 
restrictions on travel outside of their village of residence, 
limitations on their access to education, the ability to marry, 
the ability to have children, and access to livelihood, food, 
water, and sanitation, and healthcare. And their situation is 
only getting worse.
    Since the outbreak of violence against the Rohingya last 
year, the Burmese Government has forced people into relief 
camps so that it could confiscate their land, homes, and 
property for redistribution to the Buddhist Rakhine. The 
investigative commission convened by President Thein Sein to 
look into the causes of the June 12th violence did little more 
than recommend further segregation of the Rohingya, deploying 
more security personnel into the Rakhine state, and instituting 
a family planning program to reduce the growth rate of the 
Muslim population. Further exacerbating the situation, most 
Burmans classify the Rohingya as ``Bengali Muslims'' and would 
prefer they return to Bangladesh. However, Bangladesh does not 
accept the Rohingya population as Bengali and refuses them 
citizenship rights as well.
    While this violence has increased, so has pressure from the 
U.S. and the international community for the Burmese Government 
to address this serious problem, which some organizations have 
claimed is at an extremely high risk of genocide. Most 
recently, the U.N. and U.S. have called for an investigation of 
the Rohingya Muslims that are being trafficked by Thai 
officials into human trafficking rings and held hostage in 
camps near the Malaysian border until relatives pay ransoms to 
release them. Some have been beaten, while others have been 
killed. Nonetheless, the Burmese Government is purportedly 
doing little, but rather supporting Burma's anti-Islam 
movement.
    H. Res 418 raises awareness of this on-going crisis in 
Burma and the need for its government to respect the human 
rights of all its ethnic and religious minority groups. It also 
highlights the need for the U.S. and international community to 
continue pressuring Burma to end its blatant persecution and 
discrimination of the Rohingya population. I believe this is an 
important resolution and I urge the subcommittee's support in 
our consideration of this measure this afternoon.
    Next, I would like to express my support for H. Res. 281, 
which I have co-sponsored along with 160 other Members of 
Congress.
    The Government of the People's Republic of China maintains 
one of the worst human rights records of any government in the 
entire world. Every year, thousands, if not tens of thousands 
of innocent Chinese people, are subject to arbitrary detention, 
torture, and persecution by security services. The Communist 
Party of China strictly controls every facet of political 
thought, public life, and personal expression. The Internet is 
monitored, mainstream media is co-opted and only state-
sanctioned religion can be practiced openly.
    Human rights abuses in China extend to every corner of the 
nation and every facet of society. In Tibet, the central 
government is in the midst of a wide-ranging crackdown aimed at 
breaking the will of the Tibetan people by depriving them of 
religion and important cultural traditions. The Uighur 
population in China faces constant pressure from the state and 
is no stranger to the types of persecution that is routinely 
employed by security services. Anyone who dares to speak out is 
immediately targeted and punished.
    The ill treatment of Falun Gong practitioners by the 
Government of China is well known and well documented. The 
Communist Party of China sees Falun Gong practitioners as an 
ideological threat to the Party's existence. As a result, 
persecution of the Falun Gong is officially sanctioned. 
Practitioners have been arrested in large numbers, detained 
without trial until they renounce Falun Gong beliefs, and are 
victims of systematic torture. I could go on. However, despite 
the international attention given to this abuse, there appears 
to be no reduction in the severity or frequency of the abuse.
    H. Res. 281 focuses on the egregious treatment and human 
rights violations of Falun Gong practitioners by the Government 
of China. The resolution highlights the many credible reports 
of forced organ harvesting by state security services against 
prisoners of the state, including Falun Gong practitioners. I 
urge the subcommittee's support of this important resolution. I 
now recognize the ranking member for his comment on today's 
measures.
    Mr. Bera. Thank you, Chairman Chabot. I want to begin by 
first thanking you and Congressman Faleomavaega for your 
leadership and moving to markup on H. Res. 418 and H. Res. 281. 
The U.S. has a solemn duty both to lead by example and to work 
closely with the international community to protect and promote 
human rights worldwide. Therefore, I support both H. Res. 418 
and H. Res. 281.
    In the case of H. Res. 418, the Falun Gong community has 
been outlawed by the Chinese Government since 1999. Despite 
this action, practitioners continue to gather in secret. 
However, in 2010, the Chinese Government launched a 3-year 
campaign to transform Falun Gong adherence. As a result, Falun 
Gong followers constitute an estimated two thirds of all 
prisoners and detainees of conscience in China. We send a 
strong message that any deprivation of human rights is clearly 
unacceptable.
    In the case of H. Res. 281, as Burma transitions from 
autocratic rule to a country of democratic rule, we must 
continue to encourage democratic reforms to produce sustained 
human rights' norms. Unfortunately, tension and conflict 
between the Buddhist majority and the minority Rohingya people 
and other ethnic and religious minority groups continues to 
increase in Burma. Targeted attacks at the hand of Burma's 
Buddhist majority, along with increased instances of arbitrary 
arrests, detention, and extortion of Rohingya and other Muslim 
communities across the country is deplorable. We must stand for 
freedom of underprivileged communities around the world. That 
is what defines us as the world's greatest democracy.
    Thank you again, Chairman Chabot for your leadership and 
support and I yield back.
    Mr. Chabot. The gentleman's time has expired. Thank you 
very much. The gentlelady from Florida, Ms. Ros-Lehtinen, the 
author of H. Res. 281, is recognized.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you so much, Dr. Bera, for leading this markup and allowing me 
to speak briefly on this important bipartisan resolution aimed 
at ending organ harvesting and religious persecution in China. 
Falun Gong, as you know, is a spiritual discipline that was 
first introduced in the early 1990s which combines exercise and 
meditation with philosophy. Its practitioners are peaceful, 
tolerant, and compassionate individuals who should be respected 
for their beliefs, not persecuted. And I have a longer opening 
statement, Mr. Chairman, that I would love to include in the 
record.
    Thank you so very much.
    Mr. Chabot. Without objection, the gentlelady's statement 
will be included as part of the record. I want to thank her for 
her leadership.
    The gentleman from California, the ranking member of the 
TNT Subcommittee, Mr. Sherman, is recognized for 5 minutes or 
whatever time he would like.
    Mr. Sherman. I commend the chairman and ranking member for 
bringing up these resolutions. I commend the gentlelady from 
Florida for introducing her resolution. Her opening statement 
was commendable and I agree with every word of it and I agree 
with almost all of the words of the resolution that has been 
submitted by the gentleman from Ohio as a substitute for the 
equally generally wonderful original resolution from the 
gentlelady from Florida.
    That being said, there is one provision here that will be a 
focus of attention should we adopt the resolution. It says that 
researcher and journalist Ethan Gutmann has estimated that some 
65,000 Falun Gong adherents ``may have been killed for their 
organs from 2000 through 20008.'' I look forward to working 
with the gentlelady from Florida. I will not offer any 
amendment to the resolution here in the subcommittee. I think 
that we need to reach out to Amnesty International and other 
mainline, respected human rights groups to see if we can really 
support this rather specific. It is true that this one 
researcher has put it forward and that we are merely quoting 
his work, not stating that that is a number that we as a 
committee or as a Congress fully endorse. Still, a vision of 
65,000 people being executed solely for their organs is a 
rather vivid image and we may want to be less specific, less 
numerical, or more certain that the number is defendable by 
consulting with other experts in the field. And I look forward 
to working on this with the gentlelady and others as we move 
forward to the full committee. I yield back. Thank you.
    Mr. Chabot. I thank the gentleman for his comments. The 
gentleman's time has expired.
    Do any other members seek recognition? The gentleman from 
California, Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I rise in support of the resolution. I 
would hope that my name could be added to the list of endorsers 
of the resolution. I, however, respectfully would disagree with 
my colleague who I almost always agree with, that in fact I 
think the bill should have been a little bit more specific. 
There are specific areas that were taken out of the bill and 
specific charges against the Chinese Government that we could 
have highlighted. But I think our job is not necessarily to 
highlight details in legislation, but instead to express our 
principle and our philosophy behind what we are doing.
    I think this legislation reflects the outrage in values of 
the American people and basically are the value that we place 
on human life and the outrage that we have that in China if not 
65,000 specific people have been murdered for their organs, 
that there are large numbers of people, a lot of them, most of 
them, if not a lot of them, are associated with a religious 
group that does nothing more than encourages meditation and 
yoga and inner spirituality and these people have been 
brutalized and murdered and in many cases for the sake of 
making a profit off taking the organs from the dead body that 
the jailers have just executed. It doesn't get more ghoulish 
than this. And we should not be hesitant about letting the 
world know about this monstrous crime, whether it was just 
65,000 people or whether it was 35,000 people.
    The fact that we do know that it is in the thousands of 
people who are being massacred in this way in order to sell 
organs to whom, to the American people and to others. We need 
to alert our fellow citizens that religious people are being 
murdered for their organs and Americans are dutily, is that the 
word I am looking for, dutifully are participating in economic 
exchanges buying organs for their families or for themselves, 
not realizing that those organs represent a crime against 
another human being. And this resolution is designed, as I say, 
I would have liked more specifics, but at least it alerts the 
American people that there is the Falun Gong and other 
religious believers are being murdered for their organs and we 
should not only condemn it, but should go out of our way to 
make sure that the United States is not in some way and 
American citizens are not some way encouraging this behavior by 
participating in the sale or purchase of organs from China for 
that reason. So I support the resolution and would have 
preferred a little bit more specifics. I will compromise with 
Brad and say I will support, we will both support the 
legislation. Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. Do any other members seek recognition? Hearing no 
further requests for recognition, the Chair moves that the 
subcommittee adopt the measures being considered en bloc. All 
those in favor, say aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it. The motion 
is approved and the en bloc measures are adopted. And so 
without objection, the following items are reported favorably 
to the full committee: H. Res. 418 and H. Res. 281, as amended 
by Chabot 34.
    I want to thank our members and staff for all their 
assistance and cooperation on today's markup. If there is no 
further business to come before the subcommittee, we are 
adjourned. Thank you very much.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
